1

APPENDIX
TABLE OF CONTENTS
Appendix A

Opinion of the United States Court of Appeals
for the Eleventh Circuit, Adams v. Office of the
Governor et al. No. 19-13554-HH (June 12, 2020).. la

Appendix B

Opinion of the United States District Court for
Middle District of Georgia, Adams v. Office of
the Governor et al. No. 3:19-cv-00010-CAR
(August 13, 2019)..............................................

Appendix C

Appendix D

11a

Constitutional Provisions and Statutes Involved
U.S. CONST. 4th amendment.............................

22a

U.S. CONST. 5th amendment

22a

Amended Complaint, Adams v. Office of the
Governor et al, No. l:19-cv-00010-CAR
(October 7, 2020)...........................................

23 a

la

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13554
Filed June 12,2020
JARVIS O'NEIL ADAMS
Plaintiff-Appellant,
v.
OFFICE OF THE GOVERNOR
OFFICE OF GREENE COUNTY SHERIFF
OFFICER PAQUETTE, official and personal capacity
OFFICER JOHN DOE, official and personal capacity
Defendants

Case: 19-13554

Date Filed: 06/12/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13554
Non-Argument Calendar
D.C. Docket No. 3:19-cv-00010-CAR
JARVIS O'NEIL ADAMS,
Plaintiff-Appellant,
versus
OFFICE OF THE GOVERNOR,
State of Georgia,
OFFICE OF GREENE COUNTY SHERIFF,
OFFICER PAQUETTE,
Greene County Deputy Sheriff,
OFFICER JOHN DOE,
presumably McGammons, Greene County
Deputy Sheriff,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Georgia
(June 12, 2020)

Case: 19-13554

Date Filed: 06/12/2020

Page: 2 of 9

Before WILSON, LAGOA, and ANDERSON, Circuit Judges.
PER CURIAM:
Jarvis O’Neil Adams, proceeding pro se, appeals the sua sponte dismissal
with prejudice of his 42 U.S.C. § 1983 action raising claims of an unlawful stop,
search, and seizure in violation of the Fourth Amendment and other rights. The
district court granted Adams’s motion to proceed in forma pauperis, but dismissed
his case with prejudice under 28 U.S.C. § 1915(e)(2)(B)(ii) because he failed to
state a claim upon which relief could be granted and because amending his
complaint would be futile under the Rooker-Feldman1 doctrine. After careful
review of the appellant’s brief and the record, we affirm in part and vacate and
remand in part.2
I.
. We review de novo a district court’s sua sponte dismissal for failure to state
a claim pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii). Mitchell v. Farcass, 112 F.3d
1483, 1490 (11th Cir. 1997). Section 1915(e) provides that an in forma pauperis
action shall be dismissed at any time if the court determines that it fails to state a
claim for which relief may be granted. § 1915(e)(2)(B)(ii). To avoid dismissal for
failure to state a claim, the complaint must contain enough facts to “raise a right to
Rookerv.Fid. Tr. Co., 263 U.S. 413 (1923); AC. Court ofAppeals v. Feldman, 460 U.S.
462 (1983).
2 To the extent that Adams appeals the dismissal of any of his other constitutional claims,
we have determined that such claims are conclusory and meritless, and we affirm their dismissal.
2

;

Case: 19-13554

Date Filed: 06/12/2020

Page: 3 of 9

relief above the speculative level.” BellAtl. Corp. v. Twombly, 550 U.S. 544,555
(2007). And its claim for relief must be plausible on its face. Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). We have stated that “conclusory allegations,
unwarranted deductions of facts or legal conclusions masquerading as facts will
not prevent dismissal.” Oxford Asset Mgmt., Ltd. v. Jaharis, 297 F.3d 1182,1188
(11th Cir. 2002). Pro se pleadings are liberally construed and held to less
stringent standards than those drafted by lawyers but must still suggest some
factual basis for a claim. Jones v. Fla. Parole Comm ’n, 787 F.3d 1105, 1107 (11th
Cir. 2015). And “[a] copy of a written instrument that is an exhibit to a pleading is
a part of the pleading for all purposes.” Fed. R. Civ. P. 10(c).
To prevail on a civil rights action under § 1983, “a plaintiff must show that
he or she was deprived of a federal right by a person acting under color of state
law.” Griffin v. City of Opa-Locka, 261 F.3d 1295,1303 (11th Cir. 2001). The
Fourth Amendment protects individuals from unreasonable searches and
seizures. Terry v. Ohio, 392 U.S. 1,9 (1968).
“A warrantless arrest without probable cause violates the Fourth
Amendment and forms a basis for a section 1983 claim,” Ortega v. Christian, 85
F.3d 1521,1525 (11th Cir. 1996), but there can be no claim for false arrest without
an arrest, Shaw v. City ofSelma, 884 F.3d 1093,1101 (11th Cir. 2018).

3

Case: 19-13554

Date Filed: 06/12/2020

Page: 4 of 9

A traffic stop is considered a seizure subject to the protections of the Fourth
Amendment. United States v. Purcell, 236 F.3d 1274,1277 (11th Cir. 2001). A
decision to stop a vehicle is reasonable under the Fourth Amendment when an
officer has probable cause to believe that a traffic violation occurred. Whren v.
United States, 517 U.S. 806, 810 (1996). Probable cause is a “reasonable ground
for belief of guilt, supported by less than prima facie proof but more than mere
suspicion.” United States v. $242,484.00,389 F.3d 1149,1160 (11th Cir. 2004).
This standard is met when an officer personally observes a traffic infraction.
See United States v. Harris, 526 F.3d 1334,1337-38 (11th Cir. 2008) (per curiam).
A warrantless search of an automobile is constitutional if (1) the automobile
is readily mobile and (2) there is probable cause to believe that it contains
contraband or evidence of a crime. United States v. Lanzon, 639 F.3d 1293,12991300 (11th Cir. 2011). The first prong is satisfied if the car is operational. United
States v. Watts, 329 F.3d 1282,1286 (11th Cir. 2003) (per curiam). As for the
second prong, probable cause to search a vehicle “exists when under the totality , of
the circumstances, there is a fair probability that contraband or evidence of a crime
will be found in the vehicle.” United States v. Lindsey, 482 F.3d 1285,1293 (11th
Cir. 2007). This standard is met when an officer detects the smell of marijuana.
United States v. Lueck, 678 F.2d 895, 903 (11th Cir. 1982), abrogation on other
grounds recognized by United States v. Phillips, 812 F.2d 1355 (11th Cir. 1987)
4

Case: 19-13554

Date Filed: 06/12/2020

Page: 5 of 9

(per curiam). In addition to searching the vehicle, officers conducting a traffic stop
may “take such steps as are reasonably necessary to protect their personal safety,”
including conducting a protective search of the driver. Purcell, 236 F.3dat 1277
(alteration accepted).
A warrantless seizure of personal property in plain view is permissible under
the Fourth Amendment where officers have probable cause to believe that the
property is contraband. See United States v. Smith, 459 F.3d 1276,1290 (11th Cir.
2006). The government can establish probable cause for the seizure of property by
showing that the property was related to “some illegal drug transaction.”
$242,484.00, 389 F.3d at 1160. In considering the evidence that funds were
related to a drug transaction, we employ “a common sense view to the realities of
normal life applied to the totality of the circumstances.” Id. The sheer quantity of
cash, although a significant fact, is not sufficient on its own to establish probable
cause to believe money was related to a drug transaction. Id. at 1161.
The district court did not err by dismissing Adams’s claims for unlawful
arrest and unlawful stop. First, he was not arrested, and second, he alleged, and
did not dispute, that the officers stopped him based on a traffic violation—failing
to use his turn signal. See O.C.G.A. § 40-6-123(b) (“A signal of intention to turn
right or left or change lanes when required shall be given continuously for a time
sufficient to alert the driver of a vehicle proceeding from the rear in the same
5

Case: 19-13554

Date Filed: 06/12/2020

Page: 6 of 9

direction or a driver of a vehicle approaching from the opposite direction.”)- The
district court also did not err by dismissing Adams’s claim for unlawful search of
his vehicle as he alleged the officers stated that they searched his car because they
smelled marijuana, which established probable cause for the search.
But the district court did err by dismissing Adams’s claim for unlawful
seizure of his personal property during the stop because it did not specifically
address whether there was.probable cause for the seizure. In other words, the
district court made no determination about whether the alleged facts supported that
the officers had probable cause to believe the seized money was contraband—e.g.,
related to a drug transaction. As this determination requires a fact-specific inquiry
governed by the totality of the circumstances, we will remand to the district court
to address in the first instance whether Adams stated a claim for unlawful seizure
under § 1983.

i

II.
“We review a district court’s decision to deny leave to amend for an abuse
of discretion,” Woldeab v. Delcalb Cty. Bd. ofEduc., 885 F.3d 1289,1291 (11th
Cir. 2018), but we review de novo the underlying legal conclusion that amendment
to the complaint would be futile, Corsello v. Lincare, Inc., 428 F.3d 1008,1012
(11th Cir. 2005) (per curiam). We review de novo a district court’s determination
that it lacks subject matter jurisdiction over a plaintiffs claims due to the
6

I

Case: 19-13554

Date Filed: 06/12/2020

Page: 7 of 9

Rooker-Feldman doctrine. See Goodman ex rel. Goodman v. Sipos, 259 F.3d 1327,
1331 (11th Cir. 2001).
Generally, the district court abuses its discretion if it does not provide a pro
se plaintiff at least one opportunity to amend his complaint before dismissing it
with prejudice, unless doing so would be futile because a more carefully crafted
complaint would still not be able to state a claim. See Woldeab, 885 F.3d at 1291—
92. Under the Rooker-Feldman doctrine, federal district courts and courts of
appeals lack subject matter jurisdiction “over certain matters related to previous
state court litigation.” Goodman, 259 F.3d at 1332. The Rooker-Feldman doctrine
“extends not only to constitutional claims presented or adjudicated by a state court,
but also to [federal] claims that are ‘inextricably intertwined’ with a state court
judgment.” Siegel v. LePore, 234 F.3d 1163,1172 (11th Cir. 2000) (en banc) (per
curiam). “A federal claim is inextricably intertwined with a state court judgment if
the federal claim succeeds only to the extent that the state court wrongly decided
the issues before it.” Id. (internal quotation mark omitted).
The Supreme Court has clarified that the Rooker-Feldman doctrine is
confined to cases that are “brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the district court proceedings
commenced and inviting district court review and rejection of those judgments.”
ExxonMobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005)
7

Case: 19-13554

Date Filed: 06/12/2020

Page: 8 of 9

(emphasis added). Rooker and Feldman do not support the idea that properly
invoked concurrent jurisdiction vanishes when a state court'reaches judgment on
the same question while the case is still under review in federal court. Id. at 292.
“Disposition of the federal action, once the state-court adjudication is complete,
would be governed by preclusion law.” Id. at 293. Thus, “the relevant inquiry [for
applying the Rooker-Feldman doctrine] is whether the state court proceedings have
ended” before the federal action was filed. Nicholson v. Shafe, 558 F.3d 1266,
1277 (11th Cir. 2009); seeLozman v. City ofRiviera Beach, 713 F.3d 1066,1072
(11th Cir. 2013) (noting Rooker-Feldman doctrine would only apply if state court
proceedings ended before commencement of the plaintiffs federal case).
And under Federal Rule of Civil Procedure 15(c)(1), “[a]n amendment to a
pleading relates back to the date of the original pleading when... the amendment
asserts a claim or defense that arose out of the conduct, transaction, or occurrence
set out—or attempted to be set out—in the original pleading.”
Here, the district court erred by concluding that amendment would be futile
because it would be barred from review under the Rooker-Feldman doctrine. As
the district court noted, the state civil forfeiture proceeding had not concluded
when. Adams filed his initial complaint. Because any amended complaint based on
the same facts could relate back to the date of the filing of the initial complaint, the
Rooker-Feldman doctrine would not apply to Adams’s amended complaint.
8

I

I

Case: 19-13554

Date Filed: 06/12/2020

Page: 9 of 9

III.
For the reasons stated above, we affirm the district court’s dismissal of
Adams’s claims for unlawful stop and search. We vacate the dismissal of Adams’s
unlawful seizure claim and remand to the district court for proceedings consistent
with this opinion.
AFFIRMED IN PART; VACATED AND REMANDED IN PART.

■

9

11a

APPENDIX B

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF GEORGIA
Civil Action No. 3:19-cv-00010-CAR
Filed August 13, 2019
JARVIS O'NEIL ADAMS
Plaintiff
v.
OFFICE OF THE GOVERNOR
OFFICE OF GREENE COUNTY SHERIFF
OFFICER PAQUETTE, official and personal capacity
OFFICER JOF1N DOE, official and personal capacity
Defendants

CQae&aa&'eAjQOOfflfflOSa/RR D(DooDTBBtit9 Filed 08/10/19 Page 3 of 98

IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF GEORGIA
ATHENS DIVISION
JARVIS O'NEIL ADAMS,
Plaintiff,
CIVIL ACTION
No. 3:19-CV-00010 (CAR)

v.

OFFICE OF THE GOVERNOR,
OFFICE OF GREENE COUNTY
SHERIFF, OFFICER PAQUETTE,
official and personal capacity,
OFFICER JOHN DOE, official
and personal capacity,
Defendants.

ORDER ON MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Before the Court is pro se Plaintiff Jarvis O'Neil Adams' Motion for Leave to
Proceed In Forma Pauperis [Doc. 6]. In his Complaint, Plaintiff alleges that two officers
from the Green County Sheriff's office unlawfully seized his money while searching his
person and vehicle in violation of Plaintiff's constitutional rights. Now, Plaintiff has
moved this Court for relief and for permission to proceed without prepayment of fees.
Plaintiff's Affidavit in support of his Motion to Proceed In Forma Pauperis ("IFP")
supports the Court's finding that he is unable to pay the cost of commencing this action
or United States Marshal service fees.1 Accordingly, Plaintiff's Motion to Proceed In

Appl. to Proceed IFP [Doc. 6].

GAMD Page 3

CSa0dJ3t99}w9OOI])ffl00&RR D©oooTBBfit9 Filed 09/10/19 Page 3 of 98

Forma Pauperis [Doc. 6] is GRANTED. After reviewing Plaintiffs Complaint, the Court
concludes this case must be DISMISSED for failure to state a claim.
BACKGROUND
Plaintiff alleges in his Complaint that on August 16, 2018, Defendant Paquette
pulled Plaintiff over for failing to turn on his signal light.2 Plaintiff states that during the
stop, Defendant Paquette told him that his vehicle smelled like marijuana.3 Defendant
Paquette then conducted an unlawful search of Plaintiffs person and vehicle and
wrongfully seized stacks of money found on Plaintiffs person and in his vehicle,
totaling $11,320.4
The state filed a civil forfeiture complaint against the seized funds on December
12, 2018, in the Superior Court of Greene County.5 About six weeks later on January 28,
2019, while the state case was ongoing, Plaintiff filed his Complaint in this Court. From
the documents Plaintiff filed in this case, it appears he did not attempt to claim the
seized funds in the state court. He did not file an answer, motion, or any other
defensive pleadings, and he did not attend the show-cause hearing. On May 6, 2019,

2 PI/s Comp., p. 3 [Doc. 1].
3 PL's Comp., p. 4 [Doc. 1].
4 Pl.'s Comp., pp. 5-6 [Doc. 1].
5 Letter re Removal, Ex. 2, pp. 1-3, "Motion for Default Judgment," fl [Doc. 7-2].

GAMD Page 4

CQae^M&xz^GOOfflffiQQ&ffiR DBoaoreBtita Filed 08/10/19 Page 3 of 98

almost five months after the state filed its civil forfeiture complaint, the Superior Court
of Greene County granted the state Default Judgment.6
Plaintiff believes he removed the state forfeiture case to this Court by filing the
Complaint in the present case. Plaintiff's filings and attachments in this Court detail the
events ongoing in the parallel state court forfeiture action.7 Among other relief, Plaintiff
seeks "actual damages" of $11,320,8 the amount of money the officers confiscated
during the traffic stop.9
ANALYSIS
Under 28 U.S.C. § 1915(e), a court must sua sponte dismiss an indigent plaintiff's
complaint or any portion thereof which (1) is frivolous or malicious; (2) fails to state a
claim on which relief may be granted; or (3) seeks monetary relief against a defendant
who is immune from such relief.10 This statute "accords judges not only the authority to
dismiss a claim based on an indisputably meritless legal theory, but also the unusual

6 Letter re Removal, Ex. 2, pp. 1-3, "Motion for Default Judgment" [Doc. 7-2]; Notice of Activity,
Ex. 1, "Default Judgment" [Doc. 8-1].
7 Plaintiff filed a "Notice of Improper Venue and Lack of Jurisdiction" in state court claiming
that the Superior Court of Greene County lacked jurisdiction to enter default judgment because
the Plaintiff thought, incorrectly, that he had "removed" the forfeiture action to this Court
before default judgment was granted. Letter re Removal, Ex. 1, "Notice of Improper Venue and
Lack of Jurisdiction" [Doc. 7-1]; Plaintiff also filed a "Notice of Activity" in this Court,
purporting that the state court judge is subject to sanctions for granting the government Default
Judgment. Notice of Activity [Doc. 8]; Notice of Activity, Ex. 1, "Default Judgment" [Doc. 8-1].
8 Pl.'s Comp., p. 6 [Doc. 1],
9 More details regarding the traffic stop may be found in the "Notice of Seizure" which is Ex. 1
•to Pl.'s Compl. [Doc. 1-1],
10 28 U.S.C. § 1915(e)(2)(B).

GAMD Page 5

C@ae^a2&x«fiOOQQQQ(a/RR DDoouiBBtilB Filed 08/10/19 Page 3 of $8

power to pierce the veil of the complaint's factual allegations and dismiss those claims
whose factual contentions are clearly baseless.

"Pro se pleadings are held to a less

stringent standard than pleadings drafted by attorneys and will, therefore, be liberally
construed."12 As is its duty, the Court has scrutinized Plaintiffs Complaint, liberally
construed all of Plaintiff's allegations, and finds Plaintiff has failed to state a claim on
which relief may be granted.
According to Rule 8 of the Federal Rules of Civil Procedure, "[a] pleading that
states a claim for relief must contain: (1) a short and plain statement of the grounds for
the court's jurisdiction... (2) a short and plain statement of the claim showing that the
pleader is entitled to relief; and (3) a demand for the relief sought..."13 In addition, a
complaint "must contain sufficient factual matter, accepted as true, to 'state a claim to
relief that is plausible on its face.'"14 A claim is plausible where the plaintiff alleges
factual content that "allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged. "15 To avoid dismissal, the allegations
raised in the complaint must be sufficient "to 'raise a right to relief above the
speculative level' on the assumption that all the allegations in the complaint are true."16

11 Neitzke v. Williams, 490 U.S. 319, 327 (1989).
12 Tannenbaum v. United States, 148 F.3d 1262,1263 (11th Cir. 1998).
13 Fed.R.Civ.P. 8(a)(2).
14 Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell Atl. Corp. v. Twombly, 550 U.S. 544,570
(2007)).
15 Id.
16 Bingham v. Thomas, 654 F.3d 1171,1175 (11th Cir. 2011) (per curiam).

GAMD Page 6

G@ae^a9fcie\GOOM09@wRR DBoomBBtiia Filed 08/10/19 Page 8 of 98

Because Plaintiff is proceeding pro se, the Court construes his pleadings more liberally
than it would formal pleadings submitted by a lawyer.17 Here, Plaintiffs Complaint
simply does not contain enough factual matter or allegations to meet the pleading
requirements of Rule 8(a)(2).18

It is clear that Plaintiff wishes to have this Court return the confiscated funds that
have now been forfeited to the state. This Court, however, is not a state appellate court;
this Court cannot review or reverse the state court's judgment forfeiting the funds to the
state.

Because the Court must liberally construe Plaintiff's claims, the Court also
construes Plaintiff's Complaint to bring claims pursuant to 42 U.S.C. § 1983 for
unlawful arrest, unlawful search of his person and vehicle, and unlawful seizure of his
property in violation of the Fourth Amendment. To state a claim for relief under
Section 1983, a plaintiff must allege that (1) an act or omission deprived him of a right,
privilege, or immunity secured by the Constitution and laws of the United States; and
(2) the act or omission was committed by a person acting under color of state law.19

17 See Tannenbaum, 148 F.3d at 1263; Powell v. Lennon, 914 F.2d 1459,1463 (11th Cir. 1990).
18 Fed.R.Civ.P. 8(a)(2).
19 Wideman v. Shallowford Cmty. Hosp., Inc., 826 F.2d 1030,1032 (11th Cir. 1987).

GAMD Page 7

O0aed33£99e\z\GOOfflffiQ0(&RR DOootJiBBtifl.9 Filed 08/10/19 Page 8 of 28

To sufficiently state claims for each of these causes of action, Plaintiff must allege
that there was no probable cause to justify the officers' actions.20 If the search or seizure
is supported or justified by probable cause, Plaintiff is absolutely barred from pursuing
his § 1983 claims.21 Here, because Plaintiff alleges and describes the probable cause
supporting the officers' actions in his Complaint, he fails to state a claim.22
"Probable cause [for the officers' actions] exists where the facts and
circumstances within the officers' knowledge and of which they had reasonably
trustworthy information are sufficient in themselves to warrant a man of reasonable
caution in the belief that an offense has been or is being committed."23 Plaintiff states
that the officer stopped him because he "did not turn [his] signal light on" and searched
his vehicle because it "smelled like marijuana."24 Each of these are sufficient to establish
probable cause.25
Although Plaintiff alleges that the officers acted "without any lawful authority"
and they were "violating the Constitution," such blanket statements and phrases do not

20U.S. v. Ross, 456 U.S. 798, 823-24 (1982) (unreasonable search); Payton v. New York, 445 U.S. 573,
588 (1980) (unlawful seizure); Marx v. Gumbinner, 905 F.2d 1503, 1505 (11th Cir. 1990) (unlawful
arrest).
21 Marx, 905 F.2d. at 1505-06.
22 See Compl. [Doc. 1].
23 Marx, 905 F.2d. at 1506.
24 Compl., pp. 3-4 [Doc. 1],
25 See, e.g., U.S. v. Champion, 609 F. App'x 122 (4th Cir. 2015) (marijuana smell was sufficient
probable cause to search vehicle during traffic stop); United States v. Jenkins, 266 F.Supp.3d 980
(E.D. Mich. 2017) (traffic violation was sufficient probable cause to stop vehicle).

GAMD Page 8

C@ae^a9St5'(Z\000fflQlQ(3affiR D0oocnBBtifl.9 Filed 00/10/19 Page 0 of 98

provide the necessary information to make these claims.26 Conclusory allegations
lacking specific details are insufficient to satisfy the Iqbal and Twombly standard.27
In sum, Plaintiff did not adequately describe the basis of his constitutional
claims. From these allegations, assuming they are true, the Court can only speculate as
to Plaintiff's right of relief. After reviewing Plaintiffs Complaint, the Court concludes it
must be DISMISSED because it fails to state a claim on which relief may be granted.
While this Court would usually afford a pro se Plaintiff the opportunity to amend
his complaint, it would be futile in this case.28 Plaintiff's Complaint cannot be remedied
because a recast complaint would be barred by the Rooker-Feldman doctrine.29 The
Rooker-Feldman doctrine holds that "federal district courts and courts of appeals lack
jurisdiction to review the final judgment of a state court,"30 and it applies to cases
"brought by state-court losers complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced and inviting district court
review and rejection of those judgments."31 The Rooker-Feldman doctrine also bars claims
that are "inextricably intertwined" with the barred claim.32 "A claim is inextricably

26 Id.
27 See Ashcroft v. Iqbal, 556 U.S. 662 (2009); Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007).
28 See Cardelle v. Miami-Dade County, 472 F. App'x 449, 450 (11th Cir. 2018) (holding "[wjhere a
more carefully drafted complaint could not state a claim and amendment would be futile,
dismissal with prejudice is proper.").
29 See D.C. Court of Appeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity Trust Co„ 263 U.S. 413
(1923).
30 Cardelle, 472 F. App'x at, 450.
31 Exxon Mobil Corp. v. Saudi Basic Industries Corp., 544 U.S. 280, 284 (2005).
32 Cormier v. Horkan, 397 F. App'x 550, 553 (11th Cir. 2010).

GAMD Page 9

Cfi£ss8:39fc0veO'[mini;!rOARR DfitorraemntS ffttetiaSBMflED R%BpsS)(iff9L8

intertwined if it would effectively nullify the state court judgment of it succeeds on to
the extent that the state court wrongly decided the issues. "33

Because Plaintiff initiated this case before the state court entered judgment, the
Rooker-Feldman doctrine does not bar the Complaint currently before the Court. If
Plaintiff filed a recast Complaint, however, such complaint would be filed after the state
court entered default judgment, and the Rooker-Feldman doctrine would bar Plaintiff's
claims. All of Plaintiff's claims challenge the legality of the search and seizure of his
funds, which could nullify the state court judgment forfeiting such funds to the state.34
Thus, all of Plaintiff's claims are "inextricably intertwined" with the state court's
forfeiture judgment. Consequently, Plaintiff's Complaint must be DISMISSED WITH
PREJUDICE because Plaintiff has failed to state a claim on which relief may be granted,
and a recast Complaint would be barred by the Rooker-Feldman doctrine.
CONCLUSION
For the foregoing reasons, Plaintiff's Motion to Proceed In Forma Pauperis [Doc. 6]
is GRANTED; however, his Complaint [Doc. 1] is hereby DISMISSED WITH
PREJUDICE.

33 Id.
34 See United States v. $53,661.50 in U.S. Currency, 613 F. Supp. 180 (S.D. Fla. 1985).

GAMD Page 10

C£&ES@:39t3\0WntiU;;tG^^RDQnuramfcrta FFfitebQCEBiCB'/tEB R%aps:BLaff9.8

SO ORDERED, this 12th day of August, 2019.
S/ C. Ashley Royal
C. ASHLEY ROYAL, SENIOR JUDGE
UNITED STATES DISTRICT COURT

GAMD Page 11

CQae«3t$Sfc-\»0OOffl(D0QtaRR DBoaoraaMK) Ffft!dcD0SM$9 P©§§dL2 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
ATHENS DIVISION
JARVIS O’NEIL ADAMS,
Plaintiff,

*
*

v.
*

Case No. 3:19-cv- 10-CAR

OFFICE OF THE GOVERNOR, et al,
*

Defendants.
*

JUDGMENT
Pursuant to this Court’s Order dated August 12, 2019, and for the reasons stated therein,
JUDGMENT is hereby entered dismissing this case. Plaintiff shall recover nothing of
Defendants.
This 13th day of August, 2019.
David W. Bunt, Cleric
s/ Gail G. Sellers, Deputy Clerk

GAMD Page 12

22a

APPENDIX C
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
U.S. Constitution 4th amendment
The right of the people to be secure in their person, houses, papers
and effects against unreasonable searches and seizures shall not
be violated, no warrants shall issue but upon probable cause
supported by oath or affirmation, particularly describing the place
to be searched and the person or thing to be seized.

U.S. Constitution 5th amendment
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of
Grand Jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war
public danger; nor shall any person be subject for the same
offense to be twice put in jeopardy of life or limb: nor shall be
compelled in any criminal case to be a witness against himself
nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without
just compensation

23 a

APPENDIX D

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF GEORGIA
CIVIL ACTION NO. 3:19-cv-00010-CAR
Filed October 7, 2020
JARVIS O'NEIL ADAMS
Plaintiff
v.
OFFICE OF THE GOVERNOR
OFFICE OF GREENE COUNTY SHERIFF
OFFICER PAQUETTE, official and personal capacity
OFFICER JOHN DOE, official and personal capacity
Defendants

AMENDED COMPLAINT

UNITED STATES DISTRICT COURT
For the
Middle District of Georgia
Athens Division

Jarvis O’Neil Adams,
Plaintiff

Case No: 3:19-cv-00010-CAR

v
OFFICE OF THE GOVERNOR,
OFFICE OF GREENE COUNTY SHERIFF,
OFFICER PAQUETTE, official and personal capacity,
OFFICER JOHN DOE, official and personal capacity,
Defendants

Basis for Jurisdiction:
The basis for jurisdiction in this matter shall be a federal question under 28 U.S.C. 1331.
The specific provisions of the United States Constitution that are at issue in this case are Titles
18 U.S.C. 242, 18 U.S.C. 241, 42 U.S.C. 1983, 28 U.S.C. 2201, 28 U.S.C. 2202, the 4th and 5th
Amendments of the United States Constitution, Article 3 section 2 of the U.S Constitution: cases
in which a state shall be party and Articles 9, 13, and 17 of the Universal Declaration of Human
Rights.

AMENDMENT TO COMPLAINT
Plaintiff believes that the evidence will show that on the night of August 16, 2018
plaintiff was seized by the defendant while traveling on Interstate 20. Plaintiff was not
committing a crime nor did plaintiff have any warrants out for his arrest prior to being seized.

Audio evidence will confirm that upon stopping plaintiff did ask the defendant to present
probable cause for the stop and will confirm that the officer did ask plaintiff if he would stand in
front of the officer's dash-cam while presenting the cause for the stop. Plaintiff believes that the
evidence will also confirm that upon stepping out of the vehicle plaintiff did inquire again as to
the reason why he was stopped to which the officer stated that he failed to see plaintiff signal.
Although the evidence will confirm that the officer states to plaintiff that he simply failed to see
plaintiff signal, the police report states that the officer saw plaintiff change lanes without
signaling, pass a vehicle, and change lanes again without signaling. Plaintiff recalls riding along
the highway and seeing the defendant maneuver into the lane that plaintiff was driving in directly
behind plaintiff. Plaintiff does not recall the defendant's blue lights being on when the defendant
maneuvered into the lane and also does not recall any other vehicles being near. Plaintiff
changed lanes at this time and the defendant maneuvered directly behind plaintiff again and
seized plaintiff, and plaintiff believes that the evidence will confirm this statement. Plaintiff does
not know whether he actually failed to signal but was not charged with anything during the stop,
and depending on what else the evidence reveals concerning the stop, plaintiff may be allowed to
ask more federal questions in regards to whether the stop was unreasonable pursuant to the 4th
Amendment. The defendant's police report then states that upon walking up to the car the
defendant immediately smelled marijuana, but as plaintiff has already stated the audio will
confirm that plaintiff does ask the officer to present probable cause for the stop and the officer
does ask plaintiff if he would stand in front of the dash-cam while the defendant presents cause
for the stop. It can be thus be concluded that the officer stating in the police report that he
smelled anything at this time is simply the officer's opinion and no evidence will be presented
that will provide proof of the officer's opinion at this time or at anytime during the stop. The

police report does not detail any other events that transpired during the stop until the search of
plaintiffs person occurred. Until the evidence is presented plaintiff believes the stop is a
violation of his constitutional secured rights for the following reasons:
•

The 4th Amendment states that citizens are secure in their effects against
unreasonable seizures. Plaintiff believes that his vehicle is considered his effects
for purposes related to the 4th Amendment, and plaintiff also believes that a
seizure occurs when the vehicle is stopped. The action does therefore deprive
plaintiff of the right secured in the Constitution, the action was based upon state
law, and depending on what the evidence shows concerning the stop plaintiff may
be allowed to ask questions regarding whether the stop was unreasonable.

•

The totality of the events which occurred resulted in personal property being
confiscated from plaintiff. Plaintiff believes that since no crime was committed
during the stop the property could not be held subject to forfeiture, because the
sole purpose for doing so was to attempt to prove the property as evidence of a
crime. Plaintiff believes that the stop must be construed in this way as well and to
proceed with the action there must first be a warrant that authorized the defendant
to come out and seize plaintiff and the property pursuant to the 4th and 5th
Amendment. Plaintiff believes the U.S. Supreme Court has already determined in
situations similar to this that for any type of criminal purpose one would be trying
to serve the stop would be considered a violation of the citizen's 4th and 5th
Amendment.

•

The 4th Amendment establishes that probable cause must be supported by oath or
affirmation. Plaintiff believes that an oath or affirmation is the epitome of a

warrant or affidavit and absent a warrant one must prove that the action itself is
justified under the Constitution and Supreme Law of the Land as it is written.
Although there are cases where the U.S. Supreme Court has ruled that a stop
based on traffic is permissible pursuant to the Constitutional rights of the citizens,
there are also cases where the U.S. Supreme Court have set limitations on what
the officer is allowed to do during the stop when the stop is based on traffic.
Plaintiff believes that when officers prolong stops to conduct actions that are not
consistent with the reason for the stop the U.S. Supreme Court rules the stop a
violation of the citizens 4th and 5th Amendment rights. Plaintiff also believes the
contrast in case-related situations presents the question of whether the actions
performed by the officer during the stop were based upon color of law.
•

Plaintiff believes that his human rights are unalienable rights which include
plaintiffs right to travel between the borders of each state with prevention from
arbitrary detention. Plaintiff believes that because the particular stretch of 1-20
considered to be Greene County only stretches about ten miles east or west, the
vast majority of the travelers are not from any of the surrounding counties or
Georgia. Plaintiff believes that it is highly improbable that county officers would
actually be sitting out on the interstate to patrol traffic. Plaintiff believes that ,
traffic is the excuse that the officers use to pull the citizen over then some citizens
are arbitrarily detained and held subject to the same type of actions that occurred
in plaintiffs case.

Plaintiff believes the evidence will confirm that prior to having his person searched his
license, registration and proof of insurance was checked, and all were confirmed valid. Plaintiff

recalls the registration and proof of insurance being in plaintiffs possession prior to the search
but the defendant was still in possession of plaintiffs license. Plaintiff also recalls being
presented with the reason for being stopped prior to his person being searched and there were
no” citations” or “tickets” etc. written during the incident. Plaintiff recalls the search of his
person being brief and only recalls having his person searched one time during the incident.
Plaintiff recalls this occurring as he was walking towards his vehicle to leave. At that time the
officer stated something to plaintiff regarding the license and had plaintiffs license clipped to
something on his chest. When plaintiff approached the defendant to retrieve the license the
defendant grabbed plaintiff and conducted a search of plaintiffs person. Plaintiff believes that all
actions consistent with the cause for the stop had already been performed prior to his person
being searched, and although the defendant's police report states that the search was a “weapons
check,” as long as plaintiff was not in possession of any weapons then there is no reason why
plaintiff should have been further hindered. Although the police report states that the defendant
felt federal reserve notes on plaintiffs person while searching him, federal reserve notes are not
weapons, and plaintiff does not believe that it is a crime for him to be in possession of federal
reserve notes, neither is it a crime for plaintiff to have federal reserve notes in his car, from thus
it can be concluded that plaintiff is free to leave at this time. Plaintiff does not believe the
evidence will provide any proof of any assertion pertaining to the officer's opinion of smelling
marijuana at this time or anytime during the incident, and plaintiff believes that all other actions
performed after the search of his person were not consistent or permissible with what officers'
are allowed to do when a stop is based on traffic. Plaintiff also believes that the evidence will
show that the search of plaintiffs person caused an quarrel between the defendant and plaintiff.
During the argument the things that were stated were consistent with: the defendant accusing

plaintiff of being in possession of narcotics, plaintiff denying the accusations, plaintiff and the
defendant quarreling about plaintiffs rights, the defendant acknowledging that he was aware of
plaintiffs rights, and the defendant ultimately telling plaintiff that he is going to search
plaintiffs vehicle anyway because the State of Georgia allows him to do so as well as many other
things. Officer John Doe arrived on the scene around this time and plaintiff asked the officer to
assist him with the situation. John Doe agreed with paquette about the state of georgia law and
told plaintiff that the state of georgia supreme court had already ruled this. In contrast to the
police report plaintiff believes the evidence will show that the parts of the argument that the
defendant(s) believed to be most beneficial to build a case against plaintiffs property was then
implemented into the police report. Until the evidence is presented plaintiff believes that the
search of his person violates his constitutional secured rights in the following ways:
The U.S. Supreme Court has already determined that officers may not prolong a
stop to perform actions that are inconsistent with the reason for the stop. Plaintiff
believes that in those cases the U.S. Supreme Court also have determined the
action itself to be a violation of the citizen's 4th and 5th Amendment rights and also
determined for any type of criminal purpose one would be trying to serve the
action would also be considered a violation of the same.
The 4th Amendment states that citizens are secure in their persons' against
unreasonable searches. The federal courts have also determined that searches of a
citizen's person can be construed with whether a citizen has a right to leave at the
time and whether the stop is over prior to the search occurring. Plaintiff believes
that this test must be viewed under the totality of the circumstances. In regards to
the actions performed, plaintiff believes that the stop was either over prior to the

search of his person or being that his person revealed no weapons the stop was
over at this time and plaintiff was free to go. Since this right is secured in the 4th
Amendment, the action itself does deprive plaintiff of the right, and plaintiff
believes that the contrast in case-related situations presents a question of whether
the action is based upon color of law.
•

The 4th Amendment establishes that probable cause must be supported by oath or
affirmation. Plaintiff believes that an oath or affirmation is the epitome of a
warrant or affidavit and absent the warrant must prove that the action itself is
justified under the Constitution and the Supreme Law of the Land as it is written.
There are several federal cases in which a search of a citizen's person has been
deemed a violation of the citizen's 4th and 5th Amendment rights. Plaintiff believes
that this is the reason that the defendant's police report attempts to chalk the
search of plaintiffs person up to a “weapons check,” but if it is and plaintiff has
no weapons then plaintiff believes he is free to leave, the stop is over, and his
right to leave is being infringed upon.

Plaintiff believes the evidence will show that the defendant did command officer John
Doe to watch plaintiff and keep plaintiff in front of the camera while the defendant searched
plaintiffs vehicle and will show plaintiff standing in front of the camera throughout the duration
of this incident. The evidence will not provide any proof of any assertion of the officer's opinion
of smelling narcotics at this time or at anytime during the incident and common sense would
denote that the item(s) that the defendant states seeing would not provide any proof of the
officer's opinion because the item(s) was not marijuana. Common sense would also denote that
the item(s) was not drug paraphernalia because if it were plaintiff would have been charged for

the paraphernalia. The police report states that the defendant saw a black plastic bag, but to
plaintiffs knowledge a black plastic bag is not contraband or paraphernalia nor evidence of a
crime. The police report states that the bag smelled like marijuana, but this is just the officer's
opinion, and plaintiff does not believe the evidence will provide any proof of the officer's
opinion at this time or anytime during the incident. Plaintiff does not believe that plastic bags
being inside of a plastic bag establishes evidence of contraband or paraphernalia nor does
plaintiff recall having any plastic bags inside of a plastic bag. Plaintiff also recalls seeing some
items displaced and discarded in the vehicle when he finally returned to the vehicle and recalls
the defendant taking pictures of the inside of the vehicle. This leads plaintiff to believe that while
the defendant was searching plaintiffs vehicle he made a mess of plaintiffs vehicle and took
pictures of the mess he made to try to use them as a evidence. The term “blunt wraps” is slang
terminology that does not specifically describe what the police report states the defendant saw,
but the evidence will and common sense will denote that the item is not contraband or
paraphernalia or else plaintiff would have been charged with it, and common sense will also
denote that the term does not refer to any “roaches, clipping's, etc.” or anything to do with seeing
marijuana wrapped up in anything because if the defendant had found even a crumb of marijuana
plaintiff would have been taken to jail. Until the evidence is presented plaintiff believes that his
Constitutional secured rights were violated in the following ways:
•

The 4th Amendment states that citizen are secure in their effects against
unreasonable searches. Plaintiff believes his vehicle and possessions are
considered his effects for all purposes related to the 4th Amendment. The action
does therefore deprive plaintiff of a right secured in the Constitution and plaintiff

believes that contrast of case-related situations presents the question of whether
the action is based on color of law.
•

The 4th Amendment establishes that probable cause must be supported by oath or
affirmation. Plaintiff believes that an oath or affirmation is the epitome of a
warrant or affidavit and absent a warrant one must prove that the action is
justified under the Constitution and the Supreme Law of the Land as it is written.
The federal courts have already determined that probable cause cannot be
established solely upon an officer's opinion of smelling narcotics. There are also
federal cases where an officer's opinion of smelling narcotics has lead to searches
and those searches were ruled violations of the citizens 4th and 5th Amendment
right for any type of criminal purpose attempting to be served. There are also
cases in which an officer's opinion of smelling narcotics has lead to searches and
other harassment and the citizen was award damages. Plaintiff believes that he is
entitled all the immunities and privileges as those citizens.

Plaintiff believes that the evidence will confirm that while the defendant is searching
plaintiffs vehicle he removed personal property belonging to plaintiff then continued searching
plaintiffs vehicle and possessions. The property was a stack of unfolded federal reserve notes
held together by three thick rubber bands, the denominations of which were twenties, fifties, and
hundred dollar notes, and the stack was placed on top of the hood of the defendant's vehicle.
Plaintiff also had a folded stack of twenty dollar federal reserve notes on his person that were
confiscated by the officer after the officer searched plaintiffs vehicle. Neither stack of federal
reserve notes were contraband and no evidence will be provided that will prove that the notes
were evidence of a crime because no crime was committed during the stop nor was plaintiff

charged with anything during the stop nor was anything else confiscated during the stop. The
evidence will confirm that plaintiff does acknowledge to the officer that he has documentation in
the vehicle regarding his personal property which consisted of plaintiffs retail license and some
other documentations. The same documentation was provided to this court in plaintiffs informa
pauperis along with bank records and the retail license that plaintiff provided is the same type
that is consistent with what convenience stores, grocery stores, and fast food restaurants, etc.
must display in their respective place of business. When plaintiff told the officer that he was
willing to show the documentations to him, the officer's response was he did not want to see
plaintiff's documentations because he already knew how plaintiff receives his money. The
defendant can also be seen asking plaintiff to sign a disclaimer and telling plaintiff that people
like plaintiff usually sign that money over to him and say they don't know how it got in their
vehicle. The defendant also tells plaintiff that he wants the money in plaintiffs pocket and tells
plaintiff to remove the money from his pocket before plaintiff is allowed to leave. The defendant
placed both stacks of federal reserve notes in a bluish looking bag and wrote a receipt for an
unknown amount of U.S. Currency which was wrongfully dated. After this happened the
defendant did not believe that plaintiff was really the person whom he identified plaintiff to be.
The defendant can be seen demanding plaintiff to show him another identification and tells
plaintiff to pull out his wallet and all of his papers. John Doe held plaintiffs driver's license and
interrogated plaintiff concerning the information listed on the identification such as plaintiffs
height, weight, date of birth, etc. and defendant paquette took out his personal cell phone and
took pictures of the inside of plaintiffs vehicle, a picture of plaintiff, plaintiffs license plate, and
also used the phone to take a fingerprint of plaintiffs thumb. The defendant also called to the
Lexington County Sheriffs department or detention center or plaintiffs local police station and

someone released information to the defendant's concerning plaintiff. Until the evidence is
presented plaintiff believes that the seizing of his property and the harassment that occurred
afterwards are violations of his Constitution secured rights in the following ways:
•

Plaintiff believes that despite the denominations or sum of plaintiffs property the
property cannot be used to establish probable cause that the property is related to
some drug transaction because no drugs were found nor was plaintiff charged
with anything during the incident. Plaintiff also believes that he has a natural
liberty to ride as he deems fit.

•

The 5th Amendment states that citizens cannot be deprived of their personal
property without due process of law, the elements of which are essentially a
certain amount of steps. Plaintiff believes that due process and the Supreme Law
are synonymous but judicial proceeding and due process are not necessarily
synonymous.

•

The Constitution states that all citizens have a right to life, liberty, and the pursuit
of happiness. Plaintiff believes that this is an unalienable right meant to give
emphasis to all other unalienable rights such as the right to earn a living and
acquire personal property. Plaintiff believes that his personal property retains all
the rights that plaintiff has and his right to his personal property cannot be
infringed upon unless justified pursuant to the Constitution.

•

The 4th Amendment establishes that probable cause must be supported by oath or
affirmation. Plaintiff believes that an oath or affirmation is the epitome of a
warrant or affidavit and absent a warrant one must prove that the action itself is
justified under the Constitution and Supreme Law of the Land as it is written.

Plaintiff believes that the sole purpose of taking his property was to attempt to
prove his property as evidence of a crime but no crime was committed during the
stop neither is the property contraband. Plaintiff believes that in cases similar to
this the U.S. Supreme Court has already determined that for any type of criminal
purpose one would be trying to serve with the property the seizing of the property
would be also be a violation of the citizen's 4th and 5th Amendment rights.
Plaintiff believes he is entitled the immunities and privileges as those citizens.
•

The 4th Amendment states that citizens have a right to be secure in their papers
against unreasonable searches, and plaintiff believes that the action of searching
plaintiffs papers does deprive plaintiff of the right secured in the constitution.
Plaintiff also believes that the contrast in case-related situations presents the
question of whether the action is based on color of law. Plaintiff does not believe
that officers are allowed to fingerprint citizens, take pictures of the citizen, call
and request information about the citizen, etc. during a stop based on traffic.
Plaintiff believes that at this point during the incident the defendant is simply
attempting to find something to take plaintiff to jail for. Plaintiff believes that
these type of actions demonstrate that at some time during the stop the officer
diverted from the reason for the stop and started conducting a criminal
investigation. Plaintiff believes that in cases where an officer does divert from the
reason for the stop and conducts actions consistent with criminal investigations it
is determined a violation of the citizen's 4th and 5th Amendment rights for any type
of criminal purpose attempting to be served.

Relief
I move the court for relief in monetary damages in the amount of $33,960 which
includes $11,320 in actual damages and treble punitive damages in accordance with 15
U.S.C. 6604 together with any such further relief pursuant to 28 U.S.C. 2202 as the court
may deem reasonable and just under the circumstances. I also move the court for relief
through exemplary damages pursuant to 18 U.S.C.242,18 U.S.C.241, and 42 U.S.C. 1983 as
defendants are a public health risk and have deprived citizen of civil rights under color of
law.

Certification and Closing
Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my
knowledge, information and belief that this complaint (1) is not being presented for an
improper purpose, such as to harass, cause unnecessary delay, or needlessly increase the cost
of litigation; (2) is supported by existing law or by a nonfrivolous argument for extending,
modifying, or reversing existing law;(3) the factual contentions have evidentiary support or,
if specifically so identified, will likely have evidentiary support after reasonable opportunity
for further investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.
I agree to provide the Clerk's Office with any changes to my address where case-related
papers may be served. I understand that my failure to keep a current address on file with the
Clerk's Office may result in the dismissal of my case.

Executed October 7, 2020
Jarvis O'Neil Adams (natural person)

N

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13554-HH
JARVIS O'NEIL ADAMS,
Plaintiff - Appellant,
versus
OFFICE OF THE GOVERNOR,
State of Georgia,
OFFICE OF GREENE COUNTY SHERIFF,
OFFICER PAQUETTE,
Greene County Deputy Sheriff,
OFFICER JOHN DOE,
presumably McGammons, Greene County
Deputy Sheriff,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Georgia
ON PETITION (Si FOR REHEARING AND PETITION! S) FOR REHEARING EN BANC
BEFORE: WILSON, LAGOA, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 .U5Courts.gov

August 11, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-13554-HH
Case Style: Jarvis Adams v. Office of the Governor, et al
District Court Docket No: 3:19-cv-00010-CAR
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Christopher Bergquist, HH/lt
Phone #: 404-335-6169
REHG-1 Ltr Order Petition Rehearing

Case 3:19-cv-00010-CAR Document 12 Filed 09/10/19 Page 1 of 18
APPEAL,PRO SE

U.S. District Court [LIVE AREA]
Middle District of Georgia (Athens)
CIVIL DOCKET FOR CASE #: 3:19-cv-00010--CAR
ADAMS v. OFFICE OF THE GOVERNOR et al
Assigned to: US DISTRICT JUDGE C ASHLEY ROYAL
Cause: 42:1983 Civil Rights Act

Date Filed: 01/28/2019
Date Terminated: 08/13/2019
Jury Demand: None
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
JARVIS O'NEIL ADAMS

represented by JARVIS O'NEIL ADAMS
525 LAWRENCE CIRCLE
BATESBURG, SC 29006
803-604-7966
PROSE

V.
Defendant
OFFICE OF THE GOVERNOR
State of Georgia

represented by WILLIAM PETERS
40 CAPITOL SQ SW
ATLANTA, GA 30334
404-656-6710
Fax:404-651-5304
Email: wpeters@law.ga.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
OFFICE OF GREENE COUNTY
SHERIFF
Defendant
OFFICER PAQUETTE
Greene County Deputy Sheriff
Defendant
OFFICER JOHN DOE
presumably McGammons, Greene County
Deputy Sheriff
Date Filed

#

01/28/2019

I

Page Docket Text
COMPLAINT against All Defendants, filed by JARVIS O'NEIL ADAMS.
(Attachments: # 1 Exhibit Property Receipt and Notice of Seizure, # 2 Civil

GAMD Page 1

Case 3:19-cv-00010-CAR Document 12 Filed 09/10/19 Page 2 of 18

Cover Sheet, # 1 Envelope)(ggs) (Entered: 01/28/2019)
01/28/2019

2

MOTION for Leave to Proceed in forma pauperis Filed by JARVIS O'NEIL
ADAMS. (Attachments: #1 Proposed Summonses, # 2 Envelope)(ggs)
(Entered: 01/28/2019)

01/28/2019

2

Consent Form (28 USC 636(c)(1)) sent to JARVIS O'NEIL ADAMS (ggs)
(Entered: 01/28/2019)

03/07/2019

&

NOTICE of Attorney Appearance by WILLIAM PETERS on behalf of OFFICE
OF THE GOVERNOR Attorney WILLIAM PETERS added to party OFFICE
OF THE GOVERNOR(pty:dft) (PETERS, WILLIAM) (Entered: 03/07/2019)

04/19/2019

2

ORDER denying without prejudice 2 Motion for Leave to Proceed in forma
pauperis. The Clerk is hereby DIRECTED to provide Plaintiff with the correct
IFP application form, A0239 Application to Proceed without Prepaying Fees
(IFP) Non-Prisoner Long Form. Ordered by US DISTRICT JUDGE C
ASHLEY ROYAL on 4/19/2019 (lap) Modified on 4/19/2019 (lap). (Entered:
04/19/2019)

05/06/2019

£

MOTION for Leave to Proceed in forma pauperis Filed by JARVIS O'NEIL
ADAMS. (Attachments: # 1 Envelope)(ggs) (Additional attachment(s) added on
5/6/2019: # 2 Exhibit Checking Account Statements, # 2 Exhibit Retail License
and Billing Statements) (ggs). (Entered: 05/06/2019)

05/06/2019

2

Letter from JARVIS O'NEIL ADAMS regarding enclosing copies of a Notice of
Improper Venue and Motion for Default Judgment filed in State Court re 1
Complaint (Attachments: # 1 Notice of Improper Venue and Lack of
Jurisdiction, # 2 Motion for Default Judgment, # 2 Envelope)(ggs) (Entered:
05/06/2019)

05/20/2019

2

NOTICE of Activity by JARVIS O'NEIL ADAMS re 1 Complaint
(Attachments: # 1 Exhibit Default Judgment (Superior Court of Greene County),
# 2 Envelope)(ggs) (Entered: 05/20/2019)

08/12/2019

2

ORDER granting 6 Motion for Leave to Proceed in forma pauperis and
Dismissing Plaintiffs Complaint With Prejudice. Ordered by US DISTRICT
JUDGE C ASHLEY ROYAL on 08/12/2019 (lap) (Entered: 08/12/2019)

08/13/2019

ID

JUDGMENT (ggs) (Entered: 08/13/2019)

09/10/2019

11

NOTICE OF APPEAL as to U2 Judgment by JARVIS O'NEIL ADAMS.
(Attachments: # 1 Envelope)(ggs) (Entered: 09/10/2019)

GAMD Page 2

